<html>
<title> - MARKUP OF: VIEWS AND ESTIMATES OF THE SMALL BUSINESS COMMITTEE FOR FY 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    VIEWS AND ESTIMATES OF THE SMALL BUSINESS COMMITTEE FOR FY 2020

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             MARCH 6, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             
                               

            Small Business Committee Document Number 116-008
             Available via the GPO Website: www.govinfo.gov
             
             
           
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-261                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>                          
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
                                                                   
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                                APPENDIX

Additional Material for the Record:
    Committee's Views and Estimates..............................     4

 
 MARKUP OF: VIEWS AND ESTIMATES OF THE SMALL BUSINESS COMMITTEE FOR FY 
                                  2020

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:50 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Kim, 
Davids, Golden, Crow, Veasey, Evans, Delgado, Houlahan, Chabot, 
Radewagen, Kelly, Balderson, Hern, Hagedorn, Stauber, Burchett, 
and Joyce.
    Chairwoman VELAZQUEZ. Good morning. The Small Business 
Committee will come to order.
    Today's order of business is to consider the Views and 
Estimates of the Committee on Small Business for fiscal year 
2020. These resources are a critical first step in helping 
entrepreneurs start and grow their business and in aiding 
established businesses to leverage their experience to invest 
in their business and employees.
    I will admit that we are again considering our views and 
estimates before there is a proposed budget provided from the 
Administration. Unfortunately, this is becoming all too common. 
Nevertheless, we are here to set our priorities and 
expectations for fiscal year 2020 to ensure the Small Business 
Administration has the necessary resources and funding to 
modernize and strengthen its core programs on behalf of 
America's entrepreneurs.
    While the economy is healthy, much uncertainty remains. As 
a recent GDP report from the Commerce Department suggests, the 
economy is slowing. In fact, there is consensus among many 
economists that the forecast for this year is growing dim. 
Rising interest rates, increasing tariffs, market volatility, 
and a depressed global economy have led consumer confidence to 
fall.
    With fears of a recession growing, and a Harvard economist 
and former Treasury secretary estimating a 50 percent chance by 
2020, more entrepreneurs and small business owners are looking 
towards the Small Business Administration and its many programs 
for help.
    That is why it is imperative that such critical programs 
are properly funded and at robust levels. The SBA's core 
programs ensure small employers and budding entrepreneurs have 
the financing, training, counseling, and access to the Federal 
marketplace they deserve as they work to strengthen our 
economy.
    Today's Views and Estimates reiterates the Committee's 
longstanding position to prioritize core programs, like the 
Small Business Development Centers and Women's Business 
Centers, rather than expanding critical funding on untested, 
agency-initiated programs.
    In order to support the SBA in its mission and to leverage 
the success of current programs, such as the SBA's flagship 
7(a) lending program, the agency requires our commitment to 
provide the requisite resources and funding levels.
    Today's proposal carries forward this commitment, but at 
the same time recognizes where improvements and increased 
oversight are needed. It is a priority for this Committee to 
take a renewed look at the entrepreneurial development programs 
to maximize their effectiveness by modernizing the programs.
    In doing so, we can deliver better results for the millions 
of entrepreneurs utilizing the SBA's resources and that of its 
resource partners.
    Finally, we all must work together to level the playing 
field in lending and Federal procurement opportunities for 
socially and economically disadvantaged business owners all 
over the country. We can achieve this through a greater 
emphasis on hiring more contracting personnel and providing 
them with adequate training in order to effectively assist 
small contractors competing in the $500 billion Federal 
marketplace.
    The budget we are proposing will breathe new life into the 
SBA. More importantly, it will provide tangible benefits to 
small businesses and make sure taxpayers get a positive return 
on their investment.
    At this point, I will yield to the Ranking Member, Mr. 
Chabot, for any comments he may have on the Committee's Views 
and Estimates.
    Mr. CHABOT. Thank you, Madam Chairwoman. And good morning 
to everyone who is here. I want to thank the Chair and her 
staff for working in a bipartisan manner on the Budget Views 
and Estimates. I appreciate her willingness to work collegially 
as we meet our responsibilities to small businesses all across 
the country.
    According to the latest economic numbers, the U.S. economy 
is continuing to improve and economic forecasts are strong. In 
our congressional districts back home and in hearings in 
Cincinnati and here in Washington and all over the country we 
hear from small business owners that they are optimistic about 
the future. There are fewer regulations from Washington, and 
they have more money to invest in their business because of the 
Tax Cuts and Jobs Act.
    However, small businesses are still finding it difficult 
for access to capital. The Small Business Administration (SBA) 
and its programs are key to helping small firms expand, create 
jobs, and grow our economy. These programs help small 
businesses to access capital, provide counseling and training, 
and link entrepreneurs with mentors.
    The SBA, in short, is vital to their success in many 
instances. Our job is to ensure that the SBA's programs are 
working efficiently and effectively. We must insist that they 
are transparent and making the best use of taxpayer dollars.
    I often say that every small business starts as an idea. 
America is a Nation of creators, inventors, and risk-takers. 
Our economy was structured to be driven by entrepreneurs, and 
in fact, most net job growth is from startups and new 
businesses. Under Administrator Linda McMahon's leadership, the 
SBA has made progress in delivering its services and ensuring 
that it is offering the services that small businesses need. 
She has traveled across the country visiting all 68 SBA 
district offices, and she listens to the SBA employees and she 
listens to small businesses.
    Again, I want to thank the Chairwoman, and I yield back the 
balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back, and I 
thank him for his remarks.
    Are there any other members who wish to be recognized for a 
statement on the Views and Estimates on the priorities of the 
Committee for fiscal year 2020?
    Seeing no members, the Committee now moves to consideration 
of the Views and Estimates. The clerk will read the title of 
the document.
    The CLERK. Views and Estimates of the Committee on Small 
Business on matters to be set forth----
    Chairwoman VELAZQUEZ. I ask unanimous consent that the 
Views and Estimates be considered as read and open for 
amendment in its entirety.
    Does any member seek recognition for the purpose of 
offering an amendment?
    Seeing no amendments we will move on.
    And the question is on adopting the Views and Estimates on 
the priorities of the Committee for fiscal year 2020.
    All those in favor say aye.
    Those opposed no.
    In the opinion of the Chair the ayes have it.
    The ayes have it, and the Views and Estimates are agreed 
to.
    I will now recognize the Ranking Member for the purpose of 
making a motion.
    Mr. CHABOT. Thank you, Madam Chairwoman.
    I would move that the minority members of the Committee be 
permitted to offer additional views and estimates on the budget 
for fiscal year 2020.
    Chairwoman VELAZQUEZ. Thank you.
    Without objection, so ordered.
    And the Committee is authorized to make technical and 
grammatical corrections to the Views and Estimates. And I 
believe that concludes the business before the Committee today.
    So if there is no further business to come before the 
Committee, we are adjourned and the Committee will stand in 
recess for a few moments to prepare for the Committee hearing. 
Thank you.
    [Whereupon, at 10:57 a.m., the committee was adjourned.]
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
